Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212] 608-3141
STATE OF NEW YORK,
SS:
COUNTY OF NEW YORK

82037

AFFIDAVIT OF SERVICE

)

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 12th day of February 2020 deponent served 3 copies of the within
BRIEF OF AMICI CURIAE67 RELIGIOUS ORGANIZATIONS
IN SUPPORT OF RESPONDENTS

upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Noel J. Francisco, Solicitor General
Counsel of Record
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Ramzi Kassem
Counsel of Record
City University of New York School of Law
Main Street Legal Services, Inc.
2 Court Square
Long Island City, NY 11101
[718) 340-4558
ramzi.kassem@law.cuny.edu

Attorneys for Petitioners
Attorneys for Respondents

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on February 12, 2020 pursuant to Supreme
Court Rule 29.5[c]. All parties required to be served, have been served.

-4<MJi,
Howard Daniels

iJ ~ ,

Sworn to me this

February 1 2, 2020

Case Name: FNU Tanzin v. Muhammed Tanvir

NADIA R. OSWALD HAMID

Notary Public, State of New York
No. 010S6101366
Qualified in Kings County
Commission Expires November 10, 2023

Docket No. 19•71

